<html>
<title> - RENEWABLE ENERGY TRANSITION: A CASE STUDY OF HOW INTERNATIONAL COLLABORATION ON OFFSHORE WIND TECHNOLOGY BENEFITS AMERICAN WORKERS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                   RENEWABLE ENERGY TRANSITION: A CASE STUDY 
                    OF HOW INTERNATIONAL COLLABORATION ON 
                    OFFSHORE WIND TECHNOLOGY BENEFITS 
                    AMERICAN WORKERS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 29, 2021

                               __________

                           Serial No. 117-72

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                       

                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-495 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                         
                       
 COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman
                  
BRAD SHERMAN, California              MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia	      CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida	      STEVE CHABOT, Ohio
KAREN BASS, California		      SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	      DARRELL ISSA, California
DAVID CICILLINE, Rhode Island	      ADAM KINZINGER, Illinois
AMI BERA, California		      LEE ZELDIN, New York
JOAQUIN CASTRO, Texas	              ANN WAGNER, Missouri
DINA TITUS, Nevada		      BRIAN MAST, Florida
TED LIEU, California		      BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	      KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota	      TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota		      MARK GREEN, Tennessee
COLIN ALLRED, Texas		      ANDY BARR, Kentucky
ANDY LEVIN, Michigan		      GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia	      DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania	      AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey	      PETER MEIJER, Michigan
ANDY KIM, New Jersey	              NICOLE MALLIOTAKIS, New York
SARA JACOBS, California		      RONNY JACKSON, Texas
KATHY MANNING, North Carolina	      YOUNG KIM, California
JIM COSTA, California		      MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California		      JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas		      
BRAD SCHNEIDER, Illinois              
                                   

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------                                

Subcommittee on Europe, Energy,the Environment and Cyber

              WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, 
ABIGAIL SPANBERGER, Virginia             Pennsylvania,Ranking Member
ALBIO SIRES, New Jersey		     ANN WAGNER, Missouri
THEODORE DEUTCH, Florida	     ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island	     BRIAN MAST, Florida
DINA TITUS, Nevada		     DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota	     AUGUST PFLUGER, Texas
JIM COSTA, California		     NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas		     PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois
                                   

                      Leah Nodvin, Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Dickson, Giles, CEO, WindEurope..................................     6
Zichal, Heather, CEO, American Clean Power Association...........    13
Pedersen, Lars, Thaaning CEO, Vineyard Wind......................    17

                                APPENDIX

Hearing Notice...................................................    39
Hearing Minutes..................................................    40
Hearing Attendance...............................................    41

                   STATEMENT SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Pfluger...    42

 
    RENEWABLE ENERGY TRANSITION: A CASE STUDY OF HOW INTERNATIONAL 
  COLLABORATION ON OFFSHORE WIND TECHNOLOGY BENEFITS AMERICAN WORKERS

                        Thursday, July 29, 2021

                          House of Representatives,
                Subcommittee on Europe, Energy, the
                             Environment and Cyber,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:09 p.m., via 
Webex, Hon. William R. Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs Committee will come 
to order. Without objection, the chair is authorized to declare 
a recess of the committee at any point, and all members will 
have 5 days to submit testimony and statements, extraneous 
materials, and questions for the record subject to the 
limitations of our rules. To insert something into the record, 
please have your staff email the previously mentioned address 
that we forwarded or contact the full committee staff. Please 
keep your video function on at all times, even when you are not 
recognized by the chair.
    Members are responsible for muting and unmuting themselves, 
so please remember to mute yourselves after you have finished 
speaking. Consistent with House Resolution 965 and the 
accompanying regulations, staff will only mute members and 
witnesses, as appropriate, when they are not under recognition, 
to eliminate background noise.
    I see that we have a quorum present, and I will recognize 
myself for an opening statement. Pursuant to notice, we are 
holding a hearing today entitled, ``Renewable Energy 
Transition: A Case Study of How International Collaboration on 
Offshore Wind Technology Benefits American Workers.'' I will 
now recognize myself for an opening statement.
    On May 10th, in the 9th District of Massachusetts, we 
welcomed the long-awaited final Federal approval of Vineyard 
Wind 1, the Nation's first commercial-scale offshore wind farm 
and a linchpin to offshore wind all down the eastern coast of 
the United States. The Biden administration's announcement 
means that wind turbine construction can finally begin as soon 
as next year off the coast of Martha's Vineyard, heralding a 
new era of wind energy across the United States.
    I am incredibly proud to represent the district that is on 
the cusp of such technological innovation and work force 
innovation. It is this anticipation of a burgeoning, clean, and 
job-creating energy industry that inspired the organization of 
this hearing today where we will seek to better understand the 
current State of the United States and European offshore wind 
markets, as well as how we might cooperate and more work 
together more closely with our transatlantic allies to ensure 
that our citizens are able to make the most of the economic 
benefit of renewable energy transition.
    Before I continue with my opening statement, I would like 
to offer my sincere thanks to Ranking Member Fitzpatrick for 
participating in this hearing. His presence here today 
underscores the bipartisan support of American work force--
supports the American work force in the hope that we can 
continue to work together to highlight transatlantic 
cooperation as an avenue of support to our constituencies.
    Now let me now turn to the topic we are all here to discuss 
today, the rapid growth of the American offshore wind industry 
and the lessons we can learn from the maturation of the 
European market. The Vineyard Wind project is crucial and it is 
the first step in the United States offshore wind, but I can 
confidently say it is only the beginning. In late March, the 
Biden administration announced a set of bold actions that will 
catalyze offshore wind energy, strengthen the domestic supply 
chain, and create good-paying union jobs.
    Specifically, the administration set a goal to deploy 30 
gigawatts of offshore wind in the United States by 2030. 
Meeting this target will trigger more than 12 billion per year 
in capital investment and create tens of thousands of good-
paying union jobs with more than 44,000 workers employed in 
offshore wind by 2030, and nearly 33 additional jobs in 
communities supported by offshore wind activity that the 
administration hopes to generate enough power to meet the 
demand of more than ten million American homes for a year and 
avoid 78 metric tons of CO2 emissions.
    The Biden administration's commitments to the offshore wind 
industry will support an already burgeoning market. There are 
currently 34 proposals for offshore wind development, which 
includes 27 projects in various stages of planning and 
development. The U.S. is set to see a huge growth in offshore 
wind which will help mature the industry and continue, 
importantly, to continue to drive costs down.
    While I am incredibly optimistic about the potential growth 
in the U.S. market, we must not forget that this would not be 
possible had it not been for the monumental achievements of our 
European partners. The first European offshore wind farm was 
installed in 1991 in Denmark and since then, Europe has become 
the world leader in the industry. The European offshore wind 
sector attracted almost 32 billion dollars, U.S. dollars, of 
investment last year, a record amount, and today, roughly 
77,000 Europeans have access to high-paying union jobs in the 
offshore wind industry alone.
    Europe's offshore wind industry is expected to continue to 
grow, in part, because of the favorable governmental policies 
that exist there. The EU sees renewable energy in general, and 
offshore wind in particular, as key to meeting their greenhouse 
gas reduction targets and related goals.
    Declining costs are also contributing to Europe's offshore 
wind growth. With that being said, as we consider Europe's 
progress in the offshore wind industry, we must also explore 
how we here in Congress can facilitate our own nation's growth 
in this critical green energy sector by understanding lessons 
learned by our friends across the Atlantic.
    As a proud representative of a coastal district pioneering 
technological innovation and renewable technologies, I want to 
do everything I can do to support the development of this 
industry. That is why I have introduced legislation that 
creates a Federal grant program to assist colleges and 
universities, State and local governments, unions and 
nonprofits, to advance an offshore wind work force.
    We also have been able to secure appropriation funding for 
curriculum development at the Bristol Community College's 
National Offshore Wind Institute, as that is located in my 
district as well. And as the chair of this subcommittee, I am 
committed to exploring ways that the transatlantic alliance can 
help both Europe and the United States reach their climate 
goals and I hope to continue that exploration with today's 
hearing.
    The question now is, how can the United States and Europe 
can coordinate and cooperate to maximize the growth of this 
vitally important and the U.S. burgeoning industry? To answer 
this critical question, my colleagues and I have invited a 
group of incredibly knowledgeable experts with a diverse range 
of professional experiences. They include CEO of WindEurope, 
Giles Dickson; the American Clean Power Association's Heather 
Zichal; and Vineyard Wind's CEO Lars Pedersen.
    As longstanding experts in this field, you will be able to 
give concrete recommendations on how the U.S. and the EU can 
bolster cooperation in areas such as supply chain development, 
foreign direct investments, and work force training. We thank 
you for being here and working through, you know, seven 
different roll calls occurring in the midst of this committee.
    Transitioning to renewable energies presents yet another 
opportunity for the American economy to lead the world on 
innovation and job creation for the domestic and global work 
force as well. I am honored to be working on this issue and I 
welcome everyone's participation in the House Foreign Affairs 
Committee's first hearing ever, first hearing ever on offshore 
wind.
    Now I trust we have been joined by the ranking member as he 
is trying to work around his scheduling. I believe he is here. 
I recognize Representative Fitzpatrick. If he is not here, we 
will take Representative Fitzpatrick as he arrives given the 
circumstances we are working with.
    I will now introduce our witnesses, and I want to thank you 
again for being here. Giles Dickson is the CEO of WindEurope, 
the leading association and voice of the wind industry in 
Europe. Ms. Heather Zichal is the CEO of American Clean Power 
Association, the leading federation of renewable energy 
companies expediting the advancement of clean energy as a 
dominant power in America. Mr. Lars Pedersen is the CEO of 
Vineyard Wind, a leading developer of offshore wind projects on 
the outer continental shelf of the United States.
    I will now recognize the witnesses for 5 minutes each. 
Without objection, you have prepared a written statement and 
that will become part of the official record and your remarks 
can play off of that. Mr. Dickson, you will now be recognized 
for your opening statement.

          STATEMENT OF GILES DICKSON, CEO, WINDEUROPE

    Mr. Dickson. Thank you very much, Chairman Keating, for the 
invitation to testify before your subcommittee and for the kind 
words that you have said about offshore wind in Europe. 
Offshore wind is now 3 percent of all of the electricity we 
consume in Europe. Europe has 120 operating offshore wind farms 
in total, 5-1/2 thousand offshore wind turbines. It is 26 
gigawatts of operating capacity today. From that number we 
expect to rise by 2030 to 114 gigawatts. Beyond that the EU has 
set a target of 300 gigawatts by 2050.
    Why is there so much interest in offshore wind in Europe? 
Of course, climate change is a key political driver, but there 
is a strong recognition among governments and society that 
offshore wind makes economic sense. As you have said, the costs 
have come down markedly. It is now cheaper to build new 
offshore wind in most of Europe than it is to build new coal, 
gas, or nuclear power plants.
    There are wider economic benefits as well as falling energy 
bills for consumers. As you said, 77,000 jobs in Europe today. 
That number is rising, we expect, to 200,000 jobs by 2030. 
Every time we build an offshore wind turbine that generates, on 
average, 18 million dollars of economic activity. And as you 
have noted already, sir, last year, Europe invested 31 billion 
dollars, despite COVID, in new offshore wind farms.
    The technology continues to develop. The average size of 
the turbine we are installing at the moment is around 8 
megawatts. By 2030, it will be 15 megawatts. That means the 
turbines are more powerful, more efficient, generating now the 
capacity factors of new offshore wind farms are around 50 
percent, so it is an increasingly stable form of electricity 
generation.
    What are the lessons we have learned? What are the 
challenges we still face? And if you were to ask us what advice 
would we give to you, I have five quick observations. First, 
maritime spatial planning is very important. The 300 gigawatts 
that the EU wants by 2050 will take up 7 percent of all of the 
EU's sea space, so it is important that countries--in your 
case, States--take a very long-term approach to maritime 
spatial planning.
    It is important also that we move away from the silo 
approach to maritime spatial planning. By the silo approach, I 
mean the approach whereby you do fishing activity in a certain 
area, the shipping lanes are somewhere else, military activity 
somewhere else, then environmental protection zones, and then 
energy in some other areas. There is scope for multiple use of 
the sea space between the different economic and societal 
interests. Two examples: fishing. It is possible to fish inside 
offshore wind farms provided it is passive or pelagic surface 
fishing.
    A few wider observations about fishing communities, the 
offshore wind industry routinely consults fishermen about the 
location and layout of offshore wind farms. We pay compensation 
to them where necessary. In many countries of Europe, we, in 
fact, agree up front with the fishing industry where we should 
be building offshore wind farms and how much we should be 
building.
    We are also striving for happy coexistence with military 
activity. On offshore wind turbines there are many sensors and 
cameras, which are accumulating invaluable data and images, and 
in some countries in Europe, we are exploring with the military 
authorities how we can share this data and images with them.
    My second main observation would be the importance of 
investments in electricity grids. If we look how much money do 
we need to spend over the coming years in Europe in offshore 
wind, actually we will be spending more money on the grids than 
on the offshore wind farms themselves. It is important not only 
to spend money on the offshore grids, but also the 
reinforcements of the onshore grids.
    Third, it is so important that the permitting rules and 
procedures should be as simple as possible. We try and have 
one-stop shops in Europe wherever we can so the developer only 
needs to deal with one single authority. Of course, in the 
United States, there will always be a role for both Federal and 
State authorities. I think our advice to you would be always to 
ensure clear demarcation lines between their respective 
responsibilities in the permitting process.
    Fourth, investment in the supply chain and support for the 
supply chain. The best support any administration can give to 
the offshore wind supply chain is clarity about how much you 
want to build in the future, and where and when the options of 
the leasing rounds will take place.
    With that clarity, the industry then invests in new 
factories in the supply chain. And the supply chain is not just 
the companies building the offshore wind farms and the 
turbines, it is the shipping industry, it is the crane 
manufacturers; crucially, it is the ports as well. It is so 
important to invest in port infrastructure and, of course, to 
invest in skills development.
    Fifth and final observation, a major challenge for us in 
Europe is coordinating the activity of the different national 
administrations; coordinating the investments they are making 
in new grid infrastructure; coordinating their rules and 
regulations, for example, on health and safety, certification 
of vessels, the lightings and the markings for aviation that 
you put on the turbines; and coordination also of when and 
where different national auctions are taking place. Thank you 
very much.
    [The prepared statement of Mr. Dickson follows:]

    [GRAPHIC] [TIFF OMITTED] T5495.006
    
    [GRAPHIC] [TIFF OMITTED] T5495.007
    
    [GRAPHIC] [TIFF OMITTED] T5495.008
    
    [GRAPHIC] [TIFF OMITTED] T5495.009
    
    [GRAPHIC] [TIFF OMITTED] T5495.010
    
    Mr. Keating. Thank you for your remarks. Thank you for 
telling what an impressive level of achievement already, and 
the things that you outline we are--are issues we are dealing 
with here in the U.S.
    I now recognize Heather Zichal for your opening statement. 
Thank you for being with us.

    STATEMENT OF HEATHER ZICHAL, CEO, AMERICAN CLEAN POWER 
                          ASSOCIATION

    Ms. Zichal. Chairman Keating, Ranking Member Fitzpatrick, 
members of the House Foreign Affairs Subcommittee on Europe, 
Energy, the Environment and Cyber, thank you for the invitation 
to testify at today's hearing. My name is Heather Zichal and I 
am the CEO of the American Clean Power Association, the 
national renewable energy trade association that unites the 
power of offshore wind, land-based wind, solar storage, and 
transmission companies.
    Today we released our first Clean Power Annual, which is a 
testament to the record growth in investment in the renewable 
energy sector. The data shows our industry employs more than 
415,000 Americans and has invested more than $334 billion in 
the U.S. economy since 2005. I appreciate the House Foreign 
Affairs Subcommittee's focus on the offshore wind industry.
    Collaboration with Europe will allow domestic market 
participants to draw from lessons learned and best practices 
from a more mature European market. Smartly growing our 
domestic offshore wind market and supply chain will create 
hundreds of thousands of jobs in the American offshore wind 
industry and unlock billions of dollars of investment allowing 
to meet our climate and economic goals.
    The American offshore wind industry is on the verge of 
becoming a substantial source of clean energy close to the 
largest population centers on the U.S. East and West Coasts. 
ACP members are committed to building a thriving, successful 
domestic offshore wind industry, but the American offshore wind 
industry is playing catch-up to Europe and Asia. At the end of 
2020, there were over 24 thousand megawatts of installations in 
the Europe and the U.K., over 10 thousand megawatts in Asia-
Pacific.
    While there are just 42 megawatts of domestic offshore wind 
in operation today, the U.S. market has tremendous potential 
with over 14,000 megawatts of offshore wind currently in 
permitting and pre-construction phases. In addition to creating 
jobs, to date offshore wind companies have proposed investing 
at least 2.9 billion dollars across manufacturing, ports, 
vessels, work force development, and research areas.
    States have encouraged some of this localization of jobs 
and economic benefits through the offshore wind energy 
procurement process. In fact, some States such as New York, New 
Jersey, Massachusetts, and Virginia are requiring offshore wind 
developers to detail how hiring and sourcing of goods and 
services locally would drive economic development, with an 
emphasis on disadvantaged communities. These investments will 
increase as more projects advance and as regulatory certainty 
continues to improve, bringing enormous economic benefits to 
communities across the country.
    To realize these jobs and investments, Congress can help 
the offshore wind industry by fully resourcing permitting 
agencies, supporting work force training programs, and creating 
incentives to build a domestic supply chain and offshore wind 
vessels. Offshore wind investments and jobs depend, in part, on 
a timely and predictable Federal permitting process. Led by the 
Bureau of Ocean Energy Management, many different cooperating 
agencies participate in the permitting process.
    Certainty around auction timing and volume of additional 
lease areas in Federal waters also provide developers and 
manufacturers with the necessary confidence to make long-term 
domestic supply chain decisions. To help create more market 
certainty, ACP asks that Congress increase funding for BOEM and 
other agencies that permit offshore wind projects, fully fund 
the Port Infrastructure Development Program, and reauthorize 
Title 41 of the Federal Permitting Improvement Steering Council 
that helps with interagency coordination.
    Manufacturing of large offshore wind components and 
construction at sea requires a specialized work force. Bills 
such as the Offshore Wind Jobs and Opportunity Act, which 
creates a grant program to spur offshore wind work force 
training, can help expedite that process. Before the completion 
of a domestic supply chain and construction vessels, the 
American offshore wind industry will have to use foreign 
components and some specialized foreign-flagged construction 
vessels. There simply is not enough time to ramp up domestic 
capacity prior to an initial wave of offshore wind facilities 
being constructed. And, companies were understandably not 
willing to invest the billions of dollars to build vessels or a 
domestic supply chain, previously given the lack of certainty 
about whether offshore wind projects would ever successfully 
get through the Federal permitting process to establish a 
market to serve.
    Additional policy levers can help drive an even greater 
degree of domestic manufacturing of offshore wind components 
and vessels on a more ambitious timeline. The size and cost to 
transport offshore wind components makes the U.S. an attractive 
market, but it will require capital-intensive manufacturing 
facilities and a substantial upgrade of American port 
infrastructure to accomplish.
    Congress can help spur these investments by creating 
incentives for facilities, equipment, vessels, and domestic 
production, updating trade policy, leveraging complementary 
financing pathways, and funding research and development. Thank 
you for the opportunity to testify today during this historic 
time for the offshore wind industry and I look forward to 
answering your questions.
    [The prepared statement of Ms. Zichal follows:]

    [GRAPHIC] [TIFF OMITTED] T5495.017
    
    Mr. Keating. Thank you very much. Great segue in between 
our witnesses. And now I am going to pass the chair to 
Representative Vice Chair Spanberger, who will recognize 
Representative Fitzpatrick now for his opening statement.
    Ms. Spanberger [presiding]. I will now recognize 
Representative Fitzpatrick for his opening statement and then 
we will be continuing on with our witnesses. Thank you.
    Mr. Fitzpatrick. Thank you, Madam Chairwoman and also to 
Chairman Keating. Thanks to our witnesses for joining us today 
to discuss ways to collaborate with our transatlantic partners 
on offshore wind technologies that we hope will provide 
sustainable energy resources and significant benefits to 
American workers in the future.
    As was alluded to earlier, wind energy is not a new concept 
in the United States, but offshore wind energy is still very 
much in its infancy. And while European nations are undeniable 
leaders in offshore wind energy, the United States has a long 
history of advancing energy development and making significant 
technological strides, both individually and through 
partnerships, with our European allies.
    The development of offshore wind technologies is no 
different, but it is vital that it not come at the expense of 
other energy industries and jobs. The United States has a 
strong interest in supporting research and development of 
offshore wind technology. The United States not only has 
tremendous wind energy potential, but it is also an important 
area which we need to be a leader in in order to effectively 
compete with the CCP and other entities around the world. We 
need to be upfront on this technological development, not 
fighting to keep up with our adversaries.
    Investments in these technologies will establish the United 
States presence in the competitive landscape of sustainable 
energy and position us better to compete with the PRC moving 
forward. However, we must remember to keep the interests of the 
American workers and industries among our top priorities. We 
must ensure that we have the necessary vessels and 
infrastructure in place to safely and effectively develop and 
install offshore wind farms and we must also be sure that we 
are taking into account any potential implications on other 
industries like fishing and shipping.
    To that end, we must carefully evaluate the effects of 
scaling this industry and the effects that it would have on our 
port infrastructure and the fisheries that may be impacted by 
these installations. It is my hope that our witnesses can 
detail what has been done and what can be done in the private 
sector to better prepare the United States and our European 
partners to develop these new technologies. Thanks for being 
here. I yield back.
    Ms. Spanberger. Thank you. The chair now recognizes Mr. 
Pedersen for his opening remarks.

         STATEMENT OF LARS PEDERSEN, CEO, VINEYARD WIND

    Mr. Pedersen. Chairman Keating, Ranking Member Fitzpatrick, 
and members of the House Foreign Affairs Subcommittee on 
Europe, Energy, the Environment and Cyber, my name is Lars 
Thaaning Pedersen and I am the CEO of Vineyard Wind. I 
appreciate the opportunity to testify today on how 
international collaboration on offshore wind benefits American 
workers.
    I have been fortunate to work on commercializing offshore 
wind since the early days of this industry and have worked on 
more than 15 offshore wind projects in all stages throughout my 
career. In the mid-2000's, offshore wind was an expensive, 
niche technology in Europe and now it is the lowest cost, 
fastest expanding energy sector in much of northern Europe.
    What we learned in those early days was in order to drive 
down costs we needed to scale up the industry in terms of 
project size and technology while ensuring that bottlenecks 
were addressed early on to create predictably and project 
delivery. Boom-bust cycles would negatively impact the ability 
for companies to make long-term investments in infrastructure 
as its supply chain and work force.
    Scaling up is directly tied to technology and nowhere is 
this more evident than in offshore wind. Wind turbine generator 
size has increased by a factor of almost six over the last 15 
years. Vineyard Wind 1 will be built with a 13-megawatt 
Haliade-X turbine from General Electric, the largest 
commercially available wind turbine in the world. Similarly, 
the liftboats have increased significantly in size, cables are 
deployed with higher electrical ratings, and foundation sizes 
have increased to be installed in deeper waters. Importantly, 
scaling up also means expanding the pool of highly skilled, 
dedicated workers engaged in developing and building safe 
projects, in addition to manufacturing the needed components.
    While there is certainly much that should be learned from 
the experiences elsewhere, I want also to be clear that, in my 
opinion, the future of the U.S. offshore wind industry is 
poised to be thoroughly and uniquely American. A great example 
of this, our project labor agreement with the Southeastern 
Massachusetts Building Trades which was signed just 2 weeks ago 
in New Bedford, Mass. It will now set the benchmark for 
building offshore wind projects in the U.S. The PLA ensure us 
that 500 of the 1,000 construction jobs that will be created as 
a result of Vineyard Wind 1 will be good-paying, local union 
jobs.
    The Agreement also includes aggressive targets for 
diversity, equity, and inclusion to ensure that the work force 
resembles the communities where we are building the project. 
Equally important to the many jobs in construction, a 
significant opportunity in the long term to maximize job 
creation in this industry remains in the supply chain, and for 
the first project we have sought to work with U.S.-based 
suppliers wherever possible. We have partnered with a company 
called Linxon, headquartered in North Carolina, to provide a 
substation that will connect our first project to the ISO-New 
England grid, and with Southwire, headquartered in Georgia, to 
manufacture and install the onshore cabling.
    It is impossible to talk about offshore wind without 
mentioning the Jones Act. Vineyard Wind fully supports the 
Jones Act and will comply with its transport requirements; 
however, as was mentioned before, due to the infancy of the 
industry in the U.S., there are currently no U.S.-flagged jack-
up installation vessels large enough to install the components 
for our first project.
    For Vineyard Wind 1, we sought to turn these installation 
challenges into opportunity. We have worked with our 
international contractors to ensure that logistics other than 
the specialized transport and installation vessels will be 
provided by companies like FOSS Maritime, headquartered in 
Seattle. FOSS Maritime will also be using union labor that will 
ensure U.S. mariners get valuable experience working on the 
first large-scale wind project in the U.S.
    Leaning on my personal experiences from Europe growing the 
industry, I see three areas where the Federal Government 
working with State and local stakeholders can make a 
significant impact on the future of this industry. The U.S. 
offshore industry will grow at a much faster rate than the 
European industry did in the early 2000's and, therefore, 
addressing these challenges early on will be key.
    One, offshore wind is fundamentally a marine construction 
industry and the components being manufactured are such large 
dimensions that they can only be transported by sea. Currently, 
the eastern seaboard where most of the projects are located do 
not have a significant number of ports, sufficient number of 
ports with the right specifications, and significant 
investments are needed to bring these port developments forward 
in due time to be ready for project construction and not least 
to attract manufacturing. Similarly, significant investments in 
vessel capacity will also be needed which will provide 
opportunities for the yachts in the Mexican Gulf with 
experience from the oil and gas industry.
    Two, the electrical grid needs to redesigned for a 
significant inflow of power produced on the outer continental 
shelf so the power can get from the coastline to the load 
centers. Grid development is inherently complex to permit, 
timelines are long, and regulations are complex with State and 
Federal agencies overseeing permitting, access to 
interconnection points, and funding of which operates off the 
grid.
    Three, educating and training a work force for this new 
industry is essential. Thousands of workers need to be trained 
for this industry in the coming years and it represents a 
significant opportunity to provide well-paying jobs for coastal 
communities that will eventually become lifelong careers.
    The Vineyward Wind 1 project represents a giant step 
forward for the U.S. offshore wind industry but it is only the 
beginning. Thank you and I look forward to answering any 
questions.
    [The prepared statement of Mr. Pedersen follows:]

    [GRAPHIC] [TIFF OMITTED] T5495.011
    
    [GRAPHIC] [TIFF OMITTED] T5495.012
    
    [GRAPHIC] [TIFF OMITTED] T5495.013
    
    [GRAPHIC] [TIFF OMITTED] T5495.014
    
    [GRAPHIC] [TIFF OMITTED] T5495.015
    
    [GRAPHIC] [TIFF OMITTED] T5495.016
    
    Ms. Spanberger. Thank you very much, Mr. Pedersen. And I 
now turn the chair back to Chairman Keating.
    Mr. Keating. I would like to thank the vice chairman.
    I will now recognize--and we are trying to do this to 
accommodate voting and since she hasn't voted on this yet, we 
will recognize--the chair recognizes Representative Titus, and 
we will check with Representative Schneider, where he is.
    Representative Titus, you have 5 minutes for your 
questions.
    Ms. Titus. Thank you very much, Mr. Chairman, and thank you 
for holding this interesting hearing. I think we have a lot to 
learn from our European neighbors about how to develop this 
source of energy. We seem to be trying to move forward in 
renewable, but we seem to put most of our focus on solar. That 
is certainly true for Nevada. We have got lots of big, wide 
open spaces and we have wind, but the wind comes in short 
gusts. It is not this steady breeze that you find in some 
places where the industry is so successful.
    First, I wonder if there are any companies or organizations 
or research and development that is looking at technology that 
will accommodate those kinds of weather conditions like we have 
in Nevada, and second, what can we do to partner and help 
countries like Kosovo, for example? I met with some people from 
there today. They are getting the political will to move off of 
coal and onto renewables, but they do not have the resources to 
do it. And we know if we are not there to help, China is only 
too willing to step in and build infrastructures. So if you 
could answer those two things, I would certainly appreciate it.
    Anybody?
    Ms. Zichal. Sure. I am happy to answer. I saw the chairman 
was speaking and I didn't want to speak over him.
    Ms. Titus. I am sorry. I didn't hear him.
    Ms. Zichal. Yes. So let me answer your second question 
first, and your first, and we will go from there. You know, I 
think the point you make about partnering with other countries 
that are committed to pursue clean energy economies is 
something that is near and dear to our heart. In fact, we have 
opened a dialog with the Biden administration to look at what 
can they do through the international funding mechanisms, 
whether that is at the EXIM or DFC, how can we make sure to--
how can we work together constructively to help other countries 
decarbonize.
    So I think there is obviously the, you know, like our 
industries will do what we can as we have a global footprint to 
help countries deploy clean energy, but I also think there is 
an important opportunity to work with this administration and 
that is certainly something we have prioritized at ACP. And I 
think, you know, that those foreign dollars in investments can 
go a long way toward meeting our broader climate goals.
    And, you know, for your question about technology, I mean 
the exciting thing about working in the renewable space is that 
there is just ongoing, whether it is storage, whether it is 
wind, solar, there is ongoing R&D, the technology continues to 
get better, and part of what we released in our report today 
was the significant decreases that we have seen in the costs of 
wind and solar, over 70 and 90 percent, respectively.
    So we are going to continue on that trajectory, but to your 
point, we also know that we need to keep investing in research 
and development and our companies absolutely do that. I think, 
as I think about the challenge, the specific challenge in 
Nevada that you pose, you know, you are right that the wind 
doesn't always blow and the sun doesn't always shine, but I 
also think that is really what is exciting about the storage 
work that we are doing at our association, because those 
storage units and the projects that we can deploy with them can 
help create and store that energy so that you are evening out 
your ability to deploy the electrons when and where you need 
them.
    So, you know, I would be happy to engage in a broader 
dialog with you, Congresswoman, but that is kind of where I see 
the big opportunity and the big play, frankly, coming down the 
pike.
    Ms. Titus. Great, thank you.
    And was the chairman speaking? I didn't mean to speak over 
him.
    [Inaudible.]
    Ms. Titus. Well, thank you then. I will yield back, Mr. 
Chairman.
    Mr. Keating. Thank you, Representative Titus. Just trying 
to determine if Representative Schneider has voted already in 
this series. Representative Schneider?
    The chair recognizes then Representative Deutch for 5 
minutes.
    Mr. Deutch. Thanks very much, Mr. Chairman. I appreciate 
it. Thanks for calling this hearing and thanks also to the 
witnesses for your thoughtful and interesting testimony.
    As the founder and co-chair of the bipartisan House Climate 
Solutions Caucus and a Member of Congress from south Florida, I 
know how, firsthand, how important it is that we embark on this 
transition to renewable energy with realism as much as with 
urgency. And I believe strongly--I believe strongly that 
pricing carbon will help us move forward along that path.
    That is why I am proud to reintroduce the Energy Innovation 
and Carbon Dividend Act. By placing a price on carbon 
emissions, the U.S. can reach net zero carbon emissions by 2050 
and turn a hundred percent of the net revenue back to American 
families. Legislation will help families afford any increase in 
energy costs. But the development of green technologies is also 
inextricably linked to energy security, so I am a strong 
supporter of clean, renewable offshore wind energy and I 
appreciated the witnesses' informative testimony.
    I wanted, Ms. Zichal, I think, for you, I wanted to ask, 
given that a significant portion of clean energy technologies 
are manufactured using rare earth minerals, the market for that 
is monopolized by China. I am hopeful that the U.S. and EU can 
work to forge secure supply chains, recycling environmentally 
sound domestic development of these critical minerals. So I 
would ask, if I may, about the stance that EU-member countries 
in supply chain, with regard to supply chain monopolization of 
China and how the U.S. and EU can work together to secure 
supply chains and foster domestic development of rare earth 
minerals.
    Ms. Zichal. Well, thank you for your leadership, 
Congressman, on the broader climate agenda. As head of a trade 
association that thinks about energy and climate policy every 
day, we wouldn't be in the lucky place that we are without 
leadership from you and others on this subcommittee. Your 
question is obviously something that I wake up every day 
thinking about, which is how do we both address the challenge 
with China but also take advantage of this opportunity to 
create jobs. And I think there is a robust dialog happening 
with the administration about, you know, how do we--what is the 
set of incentives that we need to build a domestic supply 
chain.
    And, you know, you are a thousand percent correct that, you 
know, critical mineral concerns are not going away overnight. 
So to that end, I think there is a couple things that we are 
doing. First and foremost, looking at creating domestic supply 
chains once the projects are permitted. So, you know, offshore 
wind companies are looking at this opportunity and saying, OK, 
how are we going to, you know, avoid the challenges that we 
have today in solar and wind and make sure that we are being 
really directive about our existing U.S. manufacturing 
presence.
    And part of what is exciting to me is that there is this 
conversation happening in Congress and with the White House 
about those supply chain issues and I think we have a real 
opportunity with, you know, sort of some of the core elements 
in the bipartisan infrastructure framework as well as some of 
the components being considered for reconciliation, creating 
those incentives for facilities, equipment, and vessels, 
domestic production incentives; there is a suite of trade 
policies as well that we are working on with the 
administration.
    And then funding in research and development. As you know 
well, you know, thinking about what are alternatives to these 
critical minerals, how do we invest in recycling, all of those 
pieces of the puzzle are things that our industry is investing 
on and obviously looking to leverage the important opportunity 
that we have sort of with the reconciliation package to make 
sure that the R&D piece of this as well as the domestic supply 
chain components are front and center as we are considering our 
priorities in the broader reconciliation package.
    Mr. Deutch. Thanks very much. I appreciate the thoughtful 
answer. And this is, for all of the broad conversations we have 
about energy and renewables, this is a piece that we have to 
address as we go forward if we are going to do this in a really 
sustainable way.
    So I appreciate the opportunity, Mr. Chairman, to engage in 
this conversation. This is a really important hearing. I am 
glad you are holding it. And I yield back.
    Mr. Keating. Thank you, Representative Deutch.
    The chair will recognize Representative Cicilline for 5 
minutes.
    Mr. Cicilline. Thank you very much, Chairman Keating, for 
calling this hearing. And as you all know, my home State of 
Rhode Island was home to the Nation's first offshore wind farm, 
helping to really diversify Rhode Island's energy grid and 
providing Rhode Islanders with clean and reliable electricity. 
So Rhode Island is really happy to be serving as a model with 
what offshore wind can mean for our future, a future free from 
fossil fuels, and I know it will help inform work in other 
places like Massachusetts and all throughout our country.
    And as I think you know, Mr. Chairman, we are really far 
behind our European counterparts in terms of installation and 
China not far behind them. In 2020, the U.S. had under 50 
gigawatts generated from offshore wind, while the U.K. and 
China each had approximately 10,000. So we have to make real 
investments and a real commitment to renewable sources of 
energy and this is an opportunity, I think, for those of us in 
the Northeast, particularly, to really maintain a leadership 
position.
    So I thank you, our witnesses. I mean Rhode Island, I 
think, has a great experience with respect to balancing this 
wonderful new energy source and the fishing industry. And I 
think we had a really good process that listened very carefully 
to the folks in the fishing industry, and I would love to know 
from you, Mr.--I am not sure of the best person to answer this. 
But, really, what has Europe done to work with commercial 
fishing interests to ensure that they can work responsibly 
while also expanding offshore wind installations, and are there 
things we have to be worried about beyond commercial fishing in 
terms of the broader impact to marine wildlife?
    Mr. Dickson, you can----
    Mr. Dickson. Yes, indeed. Thank you very much, sir, for the 
question. So European offshore wind farm developers routinely 
consult the local fishing industries about the location and the 
layout of offshore wind farms. And there are examples of where 
we have changed the layout so that they can sail their fishing 
vessels between the rows of turbines to do passive and pelagic 
fishing. We talked to them also about compensation for any loss 
of catch that they might suffer.
    But, in fact, our experience has been with offshore wind 
because there are so many mollusks growing on the turbines, 
there are four tons of shellfish on the foundations of each 
individual offshore wind turbine. Also the seabed is 
undisturbed because there is no bottom trawling, there is no 
dredging going on inside the offshore wind farm, so it is good 
for fish stocks, and many fishing communities end up welcoming 
the presence of an offshore wind farm.
    What is crucial is that there should be, in the European 
case it is nationwide and perhaps in your case Statewide, 
agreements between the offshore wind industry and the fishing 
industry about how much offshore wind there is going to be, 
where it is going to be blocked, and what the deal will be for 
the fishermen. To give you one concrete example, the Dutch 
Government recently invited the Dutch fishing industry and the 
Dutch wind industry to a hotel on the coast of the Netherlands 
for 3 days, and they did not let them out until they had 
reached an agreement on the plan for offshore wind and its 
coexistence with the fishing industry for the next 10 years.
    Mr. Cicilline. Thank you. You know, I think one of the 
other things that has been remarkable is the support in the EU 
for offshore wind and for renewable energy products broadly 
comes really from all across the political spectrum. And I am 
wondering whether you have any advice for us, either you or Mr. 
Pedersen, on how we might be more successful at managing this 
kind of investment and developing, really, nonpartisan support 
so that it doesn't become a partisan issue.
    I mean it seems like one of the reasons the Europeans have 
been so successful is, you know, everyone understands the value 
of creating energy this way and we sure could use some advice 
how to make this more of a bipartisan issue.
    Mr. Dickson. Plugging the economic benefits especially on 
job creation and proactively engaging communities that are 
worried that they might be losing out from the energy 
transition, thinking people working in the oil and gas 
industry, coal miners, engaging those communities, re-skilling, 
retraining so they can work in wind and offshore wind. We are 
doing this actively in Poland, Romania, other countries in 
Europe. The oil and gas industry brings a natural set of skills 
and experience which serves very well in the offshore wind 
industry.
    But it is through engaging communities, people who fear 
that they might miss out. In Europe we have this concept of the 
just energy transition where we go in, in the wind industry, to 
the shipbuilders in northern Poland, for example, to the coal 
miners in Poland, and say, ``Look, you can come and work in our 
industry,'' and this is yielding success.
    Mr. Cicilline. Thank you.
    And I know, Mr. Pedersen, that Vineyard Wind will have an 
opportunity to access some of the great talent in Rhode Island, 
particularly in the building trades, and we look forward to 
making sure your project is a success. And again, I hope you 
will be able to follow the example that Rhode Island set in the 
way to balance the importance of renewable energy and wind with 
protecting the rights of our fishing industry to continue to 
thrive. So I thank you again for being here.
    And thank you, Mr. Keating, for calling this hearing and I 
yield back.
    Mr. Keating. Thank you, Representative. The chair 
recognizes Representative Pfluger for 5 minutes.
    Mr. Pfluger. Yes. In lieu of making everyone listen to my 
voice and the way that it sounds right now, I do have something 
to submit for the record. But I will say that I want to make a 
point that my district in West Texas has more wind energy in my 
congressional district than the entire State of California, yet 
the source, and I have talked to many European ambassadors, 
this source of energy is not always reliable.
    Now that may not be the case when it comes to offshore, but 
onshore wind energy does not provide baseload capacity. Former 
Secretary of State Kerry said that in the hearing that we had 
with him recently when I asked him that question. And so I 
think it is important that as we develop an all-of-the-above 
approach to energy, in every European country that I talked to, 
especially those that are on the front lines of Russia, are 
very interested in affordable, reliable, consistent energy.
    And so I appreciate this hearing, Mr. Chairman. I do have 
something to submit for the record, but I said that I would 
keep it short so I do not make it painful for people to listen 
to me. I feel much better than I sound. So again, thank you for 
holding this hearing. I do want to continue to focus on 
reliability, something that we struggle with in this sector. So 
I will yield back at this time. Thank you.
    Mr. Keating. Thank you, Representative Pfluger. And as you 
are aware, you will have the ability to submit questions for 
the record in writing and get responses as well and that can be 
helpful and save your voice on this subcommittee, so I 
appreciate your effort.
    The chair recognizes now Representative Phillips for 5 
minutes.
    Mr. Phillips. Thank you, Mr. Chairman, and greetings to our 
witnesses. My home State of Minnesota is home to the Boundary 
Waters Canoe Area. Some of you may know it is the most visited 
wilderness area in the entire United States. And sulfide-ore 
copper mining is proposed for the wilderness's edge and it has 
the potential to flow directly into the heart of the Boundary 
Waters.
    And while I am deeply concerned about the possible harm to 
habitats that support fish and game and thousands of jobs, I am 
equally concerned about the families that have relied on high-
wage mining jobs for many generations. It is indeed a way of 
life in northern Minnesota. And I do not want to dismiss the 
threat that adoption of cleaner technologies poses to the 
economic livelihoods of residents in my State and in many parts 
of the country despite the importance of our migration to clean 
energy which I wholeheartedly support.
    So my question to the witnesses is, in your respective 
experiences, how have you seen this change affect communities? 
What steps do you think our U.S. Congress can take along with 
private companies to ensure that communities who are displaced 
by climate initiatives, trade, and the transition to clean 
energy can be kept whole and actually prosperous in the future?
    And whichever witness wants to start, I would welcome it.
    Ms. Zichal. Well, Congressman, I actually worked in 
Babbitt, Minnesota for four summers.
    Mr. Phillips. Oh, wow.
    Ms. Zichal. And know every 21-mile long shoreline of Birch 
Lake, so this issue is very near and dear to me and it is also 
something that I have a lot of respect for you on, right. I 
understand, you know, in northern Minnesota the challenges 
around identifying new job opportunities. But as I think about 
what we are doing in this country today by standing up offshore 
wind for the first time in this country, the kinds of the 
component parts, right, I mean if you just even think about the 
tens of thousands of pieces in an onshore wind turbine, we know 
that pieces of those are fractured and manufactured in 48 
States today.
    And then you think about what the opportunity looks like 
for offshore wind and it is really exciting to me because it is 
not just the wind turbines. It is the fact that we are going to 
need to train an entire new work force to be able to go out to 
sea and build these turbines. And I think in that process we 
are going to have to figure--we are going to have to do things 
like the Offshore Wind Jobs and Opportunity Act so that we have 
the ability to train up and create those jobs and 
opportunities, whether that is, you know, in the middle of the 
country or on the coasts where these offshore wind turbines are 
going to be built.
    Mr. Phillips. Right.
    Ms. Zichal. And that is what our industry is very focused 
on. I think, as I said previously, we have great opportunity 
with the conversation around the reconciliation package this 
year, and some of the incentives, tax policies as well as the 
training programs that are going to be so, so important as we 
are transitioning our work force.
    And just as a random aside, I will be in your congressional 
district in approximately a week and a half, so----
    Mr. Phillips. Well, visit.
    Ms. Zichal [continuing]. Looking forward to it.
    Mr. Phillips. We are supposed to be there too, but who 
knows at this stage.
    Ms. Zichal. Exactly.
    Mr. Phillips. I appreciate your response and I couldn't 
feel--I feel exactly the same.
    Mr. Dickson or Mr. Pedersen?
    Mr. Dickson. Yes. And thank you very much, sir. In Europe, 
onshore wind farms pay taxes to the local municipal government 
so local communities are benefiting directly in a financial 
way. There are some models in some parts of Europe also whereby 
local citizens can take a financial share of the local wind 
farm. That works in some instances, not in all instances. But 
the key thing is to show the local communities as Heather has 
said that, you know, they benefit from this. It brings jobs. It 
brings investments. It brings revenues. And we like to think in 
Europe at least that there are not many industries that are 
investing in rural communities.
    Mr. Phillips. Yes.
    Mr. Dickson. Globalized industries tend to invest in the 
large metropolises.
    Mr. Phillips. Exactly.
    Mr. Dickson. And the wind industry is one of the few that 
is going out there into the often overlooked rural communities 
around Europe creating jobs and growth and that is very 
positive.
    Mr. Phillips. I appreciate it. And I see my time is running 
out, unfortunately, Mr. Pedersen. But I did want to raise that 
issue because I know that the miners and those who are being 
displaced do not want to work in call centers or work in the 
local supermarket. They want jobs of a similar dynamic and a 
similar interest, and I think we have a responsibility to 
elevate that and ensure that we provide those opportunities. 
With that I yield back, Mr. Chair.
    Mr. Keating. Thank you, Representative. I now turn the 
chair to our vice chairman, Ms. Spanberger.
    Ms. Spanberger [presiding]. Thank you.
    Thank you. The chair now recognizes Mr. Schneider for 5 
minutes.
    Mr. Schneider. Thank you. And I want to thank the chair and 
vice chair for holding this hearing and I want to thank our 
witnesses for joining us to share their experience in this 
important topic. And I just want to very briefly build on what 
others have already talked about and that is to make sure we 
are training our work force. The investment in wind energy has 
potential to create a very large number of quality jobs. We 
have to make sure that the right skills trained and the people 
in the right places.
    And given your experience, and I will open it up to anyone 
on the panel, as Europe has gone through this process, what are 
some of the most important lessons we could learn as far as 
overcoming obstacles and clearing pathways for people to get 
the skills they need to succeed in the industry?
    Mr. Pedersen. I can maybe offer just a few sort of 
observations from trying to put together the supply chain and 
the supplies from the first project. I think as Ms. Zichal also 
alluded to, I think the ecosystem of offshore wind supply chain 
is actually extremely diverse. Even for the first project, I 
think we have more than 50 American companies from 21 States 
responding to RFPs and delivering services and products to the 
first wind farm.
    And I think once this industry becomes a truly American 
industry with manufacturing and engineers and scientists, et 
cetera, there is a lot of industries already that have similar 
and adjacent skill sets, but do not have the specific skill 
sets, so I think making sure that the projects move forward, 
making sure that manufacturing puts down roots in the U.S. is a 
key component in doing that. And then I think there needs to be 
a public-private partnership for a manufacturer of any 
component to make sure that they can get assistance and quickly 
getting a work force and getting a trained--I am sure Mr. 
Dickson can also speak to in Europe, which I also think will be 
replicated here.
    We have seen a lot of ex-servicemen entering this industry 
because they are used to working in, you know, cross-
disciplinary skills. They know electrical. They know 
electronics. They know mechanical. And you can then fit them 
into this industry because we need and then we can train them 
for the specifics of offshore. So I think No. 1 is getting the 
industry off and going and then the public-private partnerships 
to quickly transition, because a lot of the skill sets are here 
but we need to build on those and then make it specialized.
    Mr. Schneider. OK, thank you.
    Ms. Zichal or Mr. Dickson, any thoughts you want to expand 
on that?
    Mr. Dickson. If I could add to that, that it is very 
important that there are clear vocational qualifications 
frameworks for renewable energies and for the different 
industries within them. It is important that they should be 
designed with industry input and that the training and 
educational establishments should be following those 
frameworks. Yes, so that training people to have the skills 
that the industry needs.
    I would echo what Mr. Pedersen has said, ex-servicemen and 
women or former coal miners make very good wind farm 
operatives. It takes us only 6 months in Europe to train a coal 
miner to be an onshore wind farm operative. Slightly longer for 
offshore wind. But we find with people who have come from the 
offshore oil and gas industry, they can be very effective in 
the offshore wind industry very quickly.
    Mr. Schneider. Thank you. And I do not want to--Ms. Zichal, 
do you want to add something or?
    Ms. Zichal. Well, the only thing that I would add quickly 
is that it is not, what we are seeing early days is it is not 
just the coal jobs that are transferable but, you know, for oil 
and gas workers a lot of whether that is the construction of 
the actual Jones Act-compliant ships that are going to go and 
install these offshore turbines or the, you know, the 
opportunity that basically that there is a lot of skill overlap 
between the industries, and we very much as ACP are focused on 
engaging with labor unions to figure out like where can we find 
that sweet spot to partner together.
    And I think the, you know, as things like establishing a 
grant program to spur offshore training, those kinds of 
policies as we are thinking about, you know, what we really 
need to do to stand up this wind industry is keeping in mind 
that it is a specialized work force but, you know, if we can 
build from what we have today, we are going to be better off.
    Mr. Schneider. Great, thank you. I am out of time. I may 
submit some questions for the record, Mr. Chairman. But we 
talked about service members. We have a bill we are working on 
separately is Boots to Business, teaching service members to be 
entrepreneurs. One thing we would like to explore is the role 
of small businesses in developing Europe's offshore wind and if 
there is opportunities for U.S. small businesses to take 
advantage of that. And with that I yield back.
    Ms. Spanberger. Thank you very much, Mr. Schneider.
    The chair----
    Mr. Keating. Thanks, Madam Chairman. And as it happens, now 
I am going to send it back to you for your questioning, 5 
minutes. Thank you for all the work you do in making this flow 
so smoothly, actually.
    Ms. Spanberger. Thank you.
    Thank you so much. OK, perfect. Thank you so much to our 
witnesses and to Chair Keating for arranging this important 
hearing. It is clear that offshore wind energy can be a job and 
clean energy creator and it presents a real opportunity for 
transatlantic cooperation. As we approach this issue, how we 
approach this issue will really shape American competitiveness 
on the world stage including any relations in China.
    I am proud to represent Virginia's 7th congressional 
district, and while my district is not coastal, I am well aware 
of the opportunity offshore wind presents to my commonwealth. 
In June 2020, Virginia became the first State in the Nation to 
stand offshore wind turbines in Federal waters and our State is 
expected to be one of the Nation's leaders in terms of 
megawatts produced. Researchers also estimate that the offshore 
wind industry can create thousands of jobs in Virginia. These 
are high-paying jobs and the benefits will not only be felt on 
the coast.
    So to followup on that point, Ms. Zichal, I was wondering 
if you could speak a bit to the fact that, you know, investment 
in offshore wind will certainly benefit coastal communities, 
but the potential economic benefit really can extend much 
farther beyond the coasts. How else can American workers and 
businesses benefit from the focus on offshore wind energy and 
could you briefly describe some of the downstream impacts that 
will be felt throughout the United States?
    Ms. Zichal. Great. Thank you for your question. I also 
think it is--I want to thank you for acknowledging the 
important role that States like Virginia can play when it comes 
to not only solving for clean energy but also creating new 
economic opportunities. That is obviously our sweet spot and 
something we focus on every day.
    And, in fact, we as the American Clean Power Association 
did a recent analysis in looking at what if you were to deploy 
30 gigawatts of offshore wind, you know, you have the 
opportunity to generate about 400,000 job-years over the next 
decade. And so you pair that with smart decarbonization policy 
and then kind of the investments we are talking about in worker 
training as well as support for, you know, manufacturing and 
development in our ports, then you can really think about the 
economic, those economic opportunities, you know, really taking 
a meaningful role in our port communities.
    But we are also as some of the other witness mentioned, 
focus on what we can do to create jobs and focus on a just 
transition. You asked sort of how--what other benefits are 
there beyond economic benefits, and as I think about the 
ability to deploy clean energy, the ability to, you know, do 
that in a way that is not only looking at CO2 emissions, but in 
many instances our port communities have some of the most 
aggressive air quality challenges. So as I think about it, 
there is the economic piece of it, but then there is the public 
health and environmental aspect that I think are going to be a 
real win for Americans across the country.
    Ms. Spanberger. Thank you so much.
    OK, perfect. Thank you so very much.
    Well, Mr. Zichal, it is too bad that Mr. Cicilline was not 
here to hear the wonderful shout-outs that you had for Virginia 
as he spoke so lovingly about his own State.
    But I was wondering in the brief amount of time that we 
have left, if you could just be--you or Mr. Dickson could speak 
briefly to China's rapid growth in offshore wind and how we can 
ensure that the United States and Europe are best competing to 
ensure that the international market is diversified. Certainly, 
we see strides forward in wind energy as important, but I do 
want to ensure that we are watching potential international 
markets or some of the challenges that we might see with the 
rise of other powers in this space.
    Ms. Zichal. Absolutely. And the United States should take a 
backseat to no one when it comes to the deployment of offshore 
wind energy. And, you know, but the fact of the matter is we 
are behind, which is why the decisions that are being made 
today are so important. Because if we want to build that 
domestic supply chain, if we want to be the leader we know 
America can be, we are going to have to get really clear and 
focused on what are the policies that we need in order to build 
that opportunity out.
    But also equally important is the fact that we need 
certainty and predictability in the permitting process. We 
cannot wait 9 years to permit a single offshore wind proposal, 
right, like that is not a workable solution. So we want to 
focus on working with the administration as well to figure out 
how do we put in place like the permitting and leasing 
processes that are going to help us lay the strong foundation 
and create that certainty and predictability for this to be an 
attractive place for industry to invest and build out offshore 
wind.
    Ms. Spanberger. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Keating. Again, thank you for--this has actually gone 
through quite seamlessly. I put myself at the end trying to 
work this through in terms of questions, so I now recognize 
myself for some questions and I am glad I did. It gives me an 
opportunity sometimes that I do not always have.
    I would like to try this and see if this helps. If there 
has been one common thread, particularly Mr. Dickson, Ms. 
Zichal, you emphasized time and time again today the need for 
certainty, predictability going forward. So what I would like 
to do, because I know these were tough waters to cross in our 
own domestic, you know, offshore wind project in Vineyard Wind, 
I know a lot of things happened. I mean you mentioned certainty 
of permitting. There is certainly a certainty in terms of some 
of the governmental tax credits and other things that are there 
to keep your capital investors together. Then unintended 
consequences, whether they be legislation or legal challenges 
that occur, it is very difficult.
    So what I want to do is ask Mr. Pedersen, you have gone 
through this and continue to go through some of these 
challenges. Can you, you know, share with us some of the 
challenges in terms of certainty that we will fix? This is the 
first major project, commercial project, and we want to use it 
not to just get through but to learn from it. So if you could 
share with us some of the things you have had on your project 
or some of the things you encounter going forward to get to 
this point, and we have gone to a good point, and then I would 
like to ask Mr. Dickson and Ms. Zichal to react to the issues 
that you brought forward and maybe lessons learned.
    So, first, I would like to ask Mr. Pedersen and then 
hopefully have Mr. Dickson and Ms. Zichal followup.
    Mr. Pedersen. Thank you, Chairman Keating. Yes, it is true 
that especially the Vineyard Wind 1 project that has been 
through a challenge in making sure we got through the Federal 
permitting process, in particular. And I think as an example, 
and I think this is well-known that originally we were put into 
a Federal program that would yield an answer after 18 months 
and right before the finish line there was a decision to study 
a wider group of projects that then for this project meant that 
we ended up taking three and a half years.
    And I think solutions need to be found that there is more 
predictability. No one can determine the outcome of a 
permitting process or stakeholders need to be consulted and/or 
voices need to be heard, but the timing is very key. And as an 
example, the Vineyard Wind project in the summer of 2019 was 
fully contracted. We had booked vessels because you need to do 
them ahead of time. We had bought raw materials as steel and 
contracted manufacturing slots. And of course that is a 
significant impact both in the financials of any project, but 
also for the confidence of the industry if there is not a 
predictable way of getting to a decision.
    So I think permitting is absolutely key. I think great 
strides have been made in ensuring that the permitting is 
moving forward, but it is clear that with the growth of the 
industry, also stakeholder outreach, both the fishing community 
that has been raised here but I would also say other 
stakeholders living along the coastlines, thinking about how we 
can avoid that these stakeholders that may not have as many 
resources as the companies like I am representing can be heard 
in a meaningful way and that hearings are not overly 
repetitive, but we can also ensure that we get a meaningful 
dialog across projects, across States. I think that is a key 
lesson as we scale up this industry.
    Mr. Dickson. One observation, Chairman, about China, if I 
may. China will build a lot of offshore wind and there is 
nothing we can do about that. That is what they want to do, 
fine. Good. The key thing is that we remain ahead of China in 
the quality of the technology and in the technology that we 
apply also to integrate wind power in the wider energy system.
    And there has been much discussion about the question of 
reliability. Congressman Pfluger raised it. Congresswoman Titus 
raised it. The offshore wind turbines now have capacity factors 
of 50 percent or more so they are much more reliable than they 
used to be when wind energy started. In addition, we are 
investing in grid technology that helps us balance variable 
supply with variable demand. And the grid investments have a 
key role to play in managing the variability of wind power, 
whether offshore or onshore. The wind is always going to be 
blowing somewhere and the key thing is to ensure that the grid 
infrastructure allows us to transmit the wind where it is 
blowing to where it is needed by consumers, both household and 
industrial.
    Mr. Keating. Now before Ms. Zichal answers, it is just 
interesting to note to the importance of domestic supply and 
reliability there, because modification is necessary as 
certainly there was in the Vineyard Wind project. Modification 
is necessary and sometimes with China there is a history of not 
being that adaptable to that modification. And that is why I 
think one reason that is important to have a domestic supply is 
to have that potential too, because delays could be more costly 
in dealing with it. Particularly, as you were saying, Mr. 
Dickson, the interfacing with the grid and some of the other 
issues, it is not always a set program. So, Ms. Zichal, your 
thoughts?
    Ms. Zichal. Well, I think, Mr. Chairman, you are a thousand 
percent spot on. As I think about what we need to do to stand 
up offshore wind in this country, there is sort of three legs. 
The first is supply chain incentives. How are we going to build 
the supply chain here in America and create those good jobs? 
The second is permitting and leasing. As I said, we need 
certainty and predictability. We need to make sure that the 
agencies are working together making timely decision and that 
those agencies are well-funded in order to deliver against that 
mandate. And then the last piece of it is that we need a 
trained work force. We do not have that today, so how are going 
to build that. What are the, you know, what is the role of 
Congress in identifying those new opportunities and, you know, 
looking at, you know the Offshore Wind Jobs and Opportunity Act 
and other programs like that.
    So those are the three core components and, you know, I 
think that the challenge for us is whether we are in industry 
or in government, is trying to figure out like what are the 
collective solutions that we can bring to the table to make 
sure we do not miss this opportunity or that we outsource this 
opportunity to other countries like China. And that is what we 
are focused on and, you know, we are really happy to have this 
conversation with you today because we are not going to fix 
this overnight and it is a complicated sort of 3D chess game, 
but something that we are as an industry really looking forward 
to working with you on going forward.
    Mr. Keating. And also, I mean that is an excellent way to 
summarize as we get near the end. But it also draws it into the 
importance of that kind of those three-legged stools are being 
in place, because I look at the Vineyard Wind project which I 
am most familiar with, and just in the course of that project 
technology changed and it changed dramatically. The size of the 
blades, they were able to adapt. So there is not reason to 
think the technology is not going to continue to change and 
make things more efficient. But that requires a support system 
in place as you are going through those changes.
    So I mean you went through it, Mr. Pedersen, with the 
change in technology, and again Europe has been ahead of the 
U.S. in dealing with this and the technology changes that are 
there. But how important, what do we need for a basis knowing 
that technology is going to change as we go through? It is 
going to be changing in Europe too going forward, but it is 
going to be changing here. So what are some of the lessons 
learned there?
    Mr. Pedersen. Technology development is a key component in 
maturing this technology and continues to drive down cost to 
the benefit of ratepayers, but also making sure that we utilize 
that valuable resource that is the outer continental shelf in 
the most efficient way. I mean I have worked in the European 
offshore wind industry and what I have seen in the U.S. over 
the last 5 years is all the skills are available, you know, 
there are some of the best universities in the world, some of 
the most high-tech companies' manufacturing capabilities are 
available, so I think if we can get a concerted effort on 
putting the pillars in, and I fully agree with what Ms. Zichal 
said, and then I would mention the ports, it is a marine 
construction industry. We are building very large, heavy, bulky 
components, and if we do not have those ports, we can't unlock 
the potential that this industry has for ratepayers and also 
for jobs and economic development.
    So there is nothing that is missing. I am sure the 
technology will transfer because the market size is large 
enough and there will be a friendly competition with companies 
developing technologies on both sides of the Atlantic. And I 
think that is going to be the benefit of Europe and for the 
benefit of the U.S. in the long run.
    Mr. Keating. And I think that when you look at what has 
occurred in your project, in our project in New Bedford, one of 
the significant things, the Commonwealth of Massachusetts made 
a major investment too in that terminal on the port to be able 
to handle that ahead of time. So it shows how different levels 
of government working together are important. And you have had 
not just different levels of government in Europe, Mr. Dickson, 
you have also had different countries involved in cooperation 
in these areas. How important is that and what have you learned 
from your experience?
    Mr. Dickson. So one very small example, every country in 
Europe has different rules, different certificates for the 
health and safety of workers involved in offshore wind. That is 
inefficient. It means that companies that are operating in 
several countries cannot deploy their workers in all of those 
countries. Each time they have to find local workers who have 
the relevant health and safety certificate. And we are working 
very hard with the national governments on this, ``Please align 
your health and safety rules.'' Yes, it would save us a lot of 
money.
    One other small observation on the permitting, it is so 
important that is always possible that the permitting rules 
always allow the most updated recent technology to be deployed, 
even if that is different from the technology that was 
specified in the original permit application. If the permit 
application has many years to go through, you may find yourself 
lumbered with an old technology that is much less efficient 
than the latest technology. You may even struggle to find 
manufacturers still making those turbines. So the permitting 
rules must allow that flexibility.
    Mr. Keating. That is a terrific point. And when you look at 
artificial intelligence and other changes that occur that is 
going to be a situation.
    Just to followup and close the questioning with perhaps 
either Ms. Zichal or Mr. Pedersen reacting to what Mr. Dickson 
had just said in terms of any analogies to State or municipal 
governments and the importance of cooperation beyond the one I 
cited with the Commonwealth of Massachusetts making a major 
investment in that terminal in New Bedford.
    Ms. Zichal. Yes, so I guess I almost, one big step back and 
say, you know, look at the history of the clean energy sector. 
We are a very nimble industry. Right now, today, we are putting 
projects on the books that are hybrid, you know, wind plus 
storage projects, and those wind turbines that technology 
continues to advance. Battery technology is changing like 
almost on a daily basis.
    So, but what we have seen is, if we have got our, you know, 
Federal regulations and our State regulations aligned and we 
are able to, you know, let industry bloom because we are only 
going to continue to see cost decrease and technology 
improvements, it truly is about how do we take advantage of 
this opportunity across the board. How do we make sure we 
continue to create a nimble space for, you know, in the 
regulatory environment for new technology. Those are the things 
that are going to make or break us going forward.
    And I guess I would just point to the very rich history of 
our being able as an industry to step up and to succeed in this 
space.
    Mr. Keating. Any closing thoughts, Mr. Pedersen, on that?
    Mr. Pedersen. So, I mean I have hardly been part of any 
industry with as much excitement as the U.S. offshore wind 
industry is seeing right now. I think we see tremendous 
interest from global companies that want to work in this space 
and I think the opportunity is here and it is now. And I think 
if I take what Mr. Dickson says, I think really looking to 
those small things, trying to break down the barriers that have 
and can create massive inefficiencies both in terms of cost, 
but also in timing to move these forward and also while still 
allowing for the valuable input from all the stakeholders who 
will change to their ocean environment and a changed 
waterfront. I think if we can do that, I think U.S. offshore 
wind is an industry with an extremely bright future. It is just 
one of the best places in the world to build offshore wind.
    Mr. Keating. Yes, part of my business school background is 
still relevant, as old as it may be, and that is the concept of 
project teams with different jurisdictions all sitting down 
together in the planning stage so that you are not having one 
regulatory agency or one jurisdiction make a decision and it is 
not sequential, you know, so that they are waiting for that to 
happen and then they are moving forward. If you can work as a 
project team going forward as I saw in some instances in 
Massachusetts where the State and the commonwealth was working 
with Federal officials and communication and timing things, it 
really could be, you know, a game changer in terms of giving 
more certainty.
    So on that note, I want to thank you all. This is really, I 
must tell you the panel that we had just complement each other 
from different perspectives in giving advice is something I 
hope that we can call on in our committee in the future, the 
three of you, because I found through this hearing working 
through a challenging time of balancing other duties here on 
Capitol Hill, I found it extremely informative as to where we 
are, where to look in the future, what we can do to make things 
smoother going forward.
    But I hope we can count on you too to continue to give this 
guidance. I think it will be extremely helpful. We have someone 
going through it in the U.S. right now, someone who has a U.S. 
perspective and an understanding of the Hill and politics as 
well, and someone in Europe that, you know, the trailblazers in 
this industry are in Europe and the similarities are there what 
we can learn from that experience and hopefully what we can 
cooperate together.
    We mentioned at the outset, we will not have the ability, 
clearly do not have it now and will not have it in the near 
term of having a project, you know, having a production chain 
in personnel, trained educated personnel and in certain pieces 
of equipment available to us, so there is going to have to be 
cooperation across the Atlantic in this regard as we build our 
own production chain here in the U.S. on many of these things.
    So there is great opportunities for jobs, great mutual 
benefit moving forward on this, and I know that it was 
important some of our members brought up the idea of China and 
a reminder to us, if we stand still they continue to go 
forward. And all those production chain issues that we might 
have seen through the COVID pandemic, all those port issues 
where they are trying to vertically integrate owning the ports, 
doing this, having greater control, we are going to face those 
problems if we do not move ourselves forward. And the greatest 
partners to have in this are our transatlantic partners. And if 
we work together on this, we will put ourselves, and when I say 
ourselves, I do not just mean the U.S., the U.S. and Europe in 
a much stronger position.
    So I think that is one of the messages going forward as we 
look at things on an international sense. And I want to thank 
you. I want to thank the vice chair, if you have any closing 
remarks, you are welcome. But thank you for making this a 
seamless hearing, turning out much better. I even had members, 
by the way, on the floor as we tried this for the first time 
say, we should do this more often. This is easier. So thank you 
so much for being a part of this and I hope we can count on 
your wisdom and experience going forward. With that this 
committee is adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
